Report No. DODIG-2013-117        August 15, 2013




        Enhanced Oversight Needed for
          Nontactical Vehicle Fleets in
          the National Capital Region
Additional Copies
To obtain additional copies of this report, visit the Department of Defense Inspector
General website at http://www.dodig.mil/pubs/index.cfm, or contact the Secondary
Reports Distribution Unit at auditnet@dodig.mil.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing at auditnet@dodig.mil, or by mail:

                      Department of Defense Office of Inspector General
                      Office of the Deputy Inspector General for Auditing
                      ATTN: Audit Suggestions/13F25-04
                      4800 Mark Center Drive
                      Alexandria, VA 22350-1500




Acronyms and Abbreviations
DLA                           Defense Logistics Agency
DoD FMR                       DoD Financial Management Regulation
GPC                           Government Purchase Card
GSA                           General Services Administration
MWR                           Navy Morale, Welfare, and Recreation
NAVFAC                        Naval Facilities Engineering Command
NCIS                          Naval Criminal Investigative Service
NCR                           National Capital Region
NEXCOM                        Navy Exchange Service Command
NRL                           Naval Research Laboratory
PFPA                          Pentagon Force Protection Agency
WHS                           Washington Headquarters Services
                                    INSPECTOR GENERAL
                                      DEPARTMENT OF DEFENSE
                                      4800 MARK CENTER DRIVE
                                   ALEXANDRIA, VIRGINIA 22350-1500




                                                                                  August 15, 2013

MEMORANDUM FOR DIRECTOR, DEFENSE LOGISTICS AGENCY
               DIRECTOR, PENTAGON FORCE PROTECTION AGENCY
               DIRECTOR, WASHINGTON HEADQUARTERS SERVICES
               NAVAL INSPECTOR GENERAL
               DIRECTOR, PURCHASE CARD POLICY OFFICE, DEFENSE
                 PROCUREMENT AND ACQUISITION POLICY

SUBJECT: Enhanced Oversight Needed for Nontactical Vehicle Fleets in the National Capital
         Region (Report No. DODIG-2013-117)

We are providing this final report for review and comment. The Navy, Defense Logistics
Agency, Pentagon Force Protection Agency, and Washington Headquarters Services had
511 excess nontactical vehicles, with annual base lease costs of $1.2 million, because they did
not assess their requirements for nontactical fleet vehicles in the National Capital Region.
Eliminating the excess vehicles in their fleet would save $7.2 million over the next 6 years.

We considered management comments on a draft of this report when preparing the final report.
DoD Directive 7650.3 requires that recommendations be resolved promptly. Comments were
generally responsive. However, we request that the Navy, Defense Logistics Agency, and
Washington Headquarters Services provide additional comments as noted in the recommendations
table and on the potential monetary benefits identified in Finding A of the report by
September 16, 2013.

If possible, send a Microsoft Word (.doc) file and portable document format (.pdf) file
containing your comments to audfmr@dodig.mil. Copies of your comments must have the
actual signature of the authorizing official for your organization. We are unable to accept the
/Signed/ symbol in place of the actual signature. If you arrange to send classified comments
electronically, you must send them over the SECRET Internet Protocol Router Network
(SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 601-5945 (DSN 329-5945).




                                              Lorin T. Venable, CPA
                                              Assistant Inspector General
                                              Financial Management and Reporting
Report No. DODIG-2013-117 (Project No. D2012-D000FE-0073.000)                August 15, 2013

               Results in Brief: Enhanced Oversight Needed
               for Nontactical Vehicle Fleets in the National
               Capital Region
What We Did                                             Naval Criminal Investigative Service (NCIS)
                                                        and PFPA did not establish guidelines on the
We determined whether the Navy, Defense
                                                        use of 335 law enforcement vehicles.
Logistics Agency (DLA), Pentagon Force
Protection Agency (PFPA), and Washington
                                                        DLA’s Ft. Belvoir fleet manager used the
Headquarters Services (WHS) had controls in
                                                        mailroom manager’s Government purchase card
place to accurately assess their requirements for
                                                        (GPC) to pay $57,000 for the DLA director’s
nontactical vehicles in the National Capital
                                                        leased vehicle, rental cars, and taxis without
Region (NCR) and whether vehicles met the
                                                        valid contracts in place. This occurred because
DoD annual mileage standard. We classified
                                                        personnel did not follow procedures on the use
vehicles that used less than half of the mileage
                                                        and required oversight of the GPC. As a result,
standard as excess.
                                                        unauthorized commitments of funds occurred
                                                        and DLA might not have received the best value
What We Found                                           for rental cars.
Navy, DLA, PFPA, and WHS did not have
controls in place to accurately assess their            What We Recommend
requirements for 774 nontactical vehicles,
                                                        Among other recommendations, the
costing $2 million in 2011, in their NCR vehicle
                                                        Commanders of Naval Facilities Engineering
fleets. Specifically:
                                                        Command, Naval Research Laboratory, and
    • Navy, DLA, PFPA, and WHS fleet                    Navy Installation Command; Chief Executive
        managers did not perform annual                 Officer, Navy Exchange Service Command; and
        mileage reviews of staff vehicles;              the Directors of DLA and WHS should
    • Navy, DLA, and WHS fleet managers                 eliminate or justify excess vehicles, perform
        did not maintain adequate daily mileage         annual mileage reviews of vehicles, and
        logs; and                                       establish daily usage logs. The Directors of
    • DLA and WHS did not centrally manage              NCIS and PFPA should establish usage
        their NCR vehicle fleets.                       guidelines for law enforcement vehicles. The
This occurred because fleet managers had                Director, DLA needs to initiate action to review
staffing shortages and staff turnover; were             unauthorized commitments and begin
unaware of or lacked the authority to enforce the       ratification actions in accordance with the
requirements to conduct annual reviews and              Federal Acquisition Regulation and Defense
maintain daily mileage logs; and did not                Logistics Agency Directive.
prioritize the task to identify excess vehicles.
As a result, the Components had 511 excess              Management Comments and
nontactical vehicles, including 89 vehicles
driven less than 1,000 miles, with annual base          Our Response
lease costs of about $1.2 million. Eliminating          Management comments from the Vice Director,
these unneeded vehicles would save about                DLA; Director, PFPA; Director, WHS;
$7.2 million over the next 6 years. Further,            Inspector General, Navy Installation Command;

                                                    i
Report No. DODIG-2013-117 (Project No. D2012-D000FE-0073.000)   August 15, 2013

Commanding Officer, Naval Research
Laboratory; and the Director, Defense
Procurement and Acquisition Policy were
generally responsive. Management comments
from the Acting Director, NCIS were partially
responsive. Management comments from the
Commander, Naval Supply Systems Command
and Inspector General, Naval Facilities
Engineering Command were generally not
responsive. We request that the Navy, DLA,
and WHS provide additional comments as noted
in the table on the next page.




                                                ii
Report No. DODIG-2013-117 (Project No. D2012-D000FE-0073.000)                 August 15, 2013

Recommendations Table

                Management                              Recommendations         No additional
                                                       Requiring Comments         Comments
                                                                                   Required
Director, Defense Logistics Agency                     A.6.e                  A.6.a, A.6.b, A.6.c,
                                                                              A.6.d, A.6.f, B.2.a,
                                                                              B.2.b
Director, Naval Criminal Investigative Service         A.5.a, A.5.b
Director, Pentagon Force Protection Agency                                    A.7.a, A.7.b
Director, Washington Headquarters Services             A.8.e                  A.8.a, A.8.b, A.8.c,
                                                                              A.8.d, A.8.f
Chief Executive Officer, Navy Exchange                 A.3.a, A.3.b, A.3.c
Service Command
Commander, Naval Facilities Engineering                A.1.a, A.1.b, A.1.c,
Command
Commander, Navy Installations Command                  A.4.a, A.4.b           A.4.c
Commanding Officer, Naval Research                                            A.2
Laboratory
Director, Purchase Card Policy Office, Defense                                B.3
Procurement and Acquisition Policy
Director, Contracting Services Office, Defense                                B.1
Logistics Agency

Please provide comments by September 16, 2013.




                                                 iii
Table of Contents

Introduction                                                                  1

      Objectives                                                              1
      Background                                                              1
      Review of Internal Controls                                             2

Finding A. Improved Controls Needed to Assess Requirements for Vehicles       3

      Vehicle Fleet Regulations and Excess Determination                      3
      Reviews of Vehicle Annual Mileage Usage Needed                          4
      Daily Mileage Logs Needed for Effective Management                     13
      Central Management for Vehicle Fleet Operations                        15
      No Guidelines for the Nonmileage Use of NCIS and PFPA Law
         Enforcement Vehicles                                                15
      Short-Term Leasing and Rental Options                                  17
      Conclusion                                                             17
      Recommendations, Management Comments, and Our Response                 17

Finding B. Vehicle Leases and Taxi Services Were Not Appropriately Acquired
at the Defense Logistics Agency                                             31

      Transportation Services Acquired Incorrectly                           31
         Contract Not in Place to Lease the Director’s Vehicle               32
         Contract Not in Place to Lease Rental Cars                          32
         Contract Not in Place to Obtain Taxi Services                       33
      Actions Taken to End Car Rental Lease and Contract for Taxi Services   33
      Review of GPC Usage                                                    33
      Recommendations, Management Comments, and Our Response                 34

Appendixes

      A. Scope and Methodology                                               36
             Use of Computer-Processed Data                                  37
      B. Prior Coverage                                                      38
      C. Additional Background on the Audited Components                     40
      D. Summary of Potential Monetary Benefits                              42

Management Comments

      Defense Logistics Agency                                               43
      Naval Criminal Investigative Service                                   47
Pentagon Force Protection Agency             48
Washington Headquarters Services             50
Naval Supply Systems Command                 52
Naval Facilities Engineering Command         56
Navy Installations Command                   59
Naval Research Laboratory                    62
Defense Procurement and Acquisition Policy   64
Introduction
Objectives
Our objective was to determine whether DoD agencies and the Military Services had
controls in place to accurately assess their requirements for nontactical vehicles in their
National Capital Region (NCR) vehicle fleets. Specifically, we determined whether
adequate controls were in place to monitor the usage, quantity, and type of vehicles
owned and leased. See Appendix A for a discussion of the scope and methodology and
Appendix B for prior audit coverage of DoD vehicle fleets.

Background
“Presidential Memorandum—Federal Fleet Performance,” May 24, 2011, emphasizes as
a priority that Government vehicle motor pools be reduced to a level that will ensure
agencies can meet their mission in the most efficient way possible. Each agency is
responsible for its fleet management process, which includes determining the vehicle
needs of the organization; acquiring vehicles; using these vehicles; and implementing
appropriate controls to ensure effective fleet management and disposition of vehicles
after use.

DoD requires its Components to manage their fleet operations in accordance with
DoD Regulation 4500.36-R, “Management, Acquisition, and Use of Motor Vehicles,”
March 16, 2007. This regulation establishes policies to ensure that vehicle fleets are in
compliance with laws and regulations and are being fully used. It requires Components
to lease or purchase vehicles from the General Services Administration (GSA). DoD
Components may commercially lease or purchase vehicles outside GSA when it is more
cost effective or GSA is unable to provide the needed vehicle. Using GSA to acquire
vehicles is encouraged because it provides low-cost leasing options that include vehicle
maintenance services.

We selected four DoD Components for our audit. Specifically, we reviewed Navy,
Defense Logistics Agency (DLA), Pentagon Force Protection Agency (PFPA), and
Washington Headquarters Services (WHS) vehicle fleet management. For the Navy, we
reviewed five subcomponents, including the Naval Facilities Engineering Command
(NAVFAC), Naval Criminal Investigative Service (NCIS), Naval Research Laboratory
(NRL), Navy Morale, Welfare, and Recreation (MWR), and the Navy Exchange Service
Command (NEXCOM). See Appendix C for additional background on these
subcomponents.

For this audit, we classified the Components’ vehicles into three categories: staff
vehicles, law enforcement vehicles, and specialty vehicles. Staff vehicles are passenger
and cargo vehicles used for administrative and maintenance purposes. Law enforcement
vehicles are vehicles used in apprehension, surveillance, and police or other law
enforcement work. Specialty vehicles are vehicles that are not law enforcement or staff


                                              1
vehicles. Examples of specialty vehicles include, but are not limited to, fire trucks and
trailers. We did not audit specialty vehicles.

Additionally, the term excess in this audit refers to vehicles that were not driven at half of
the DoD annual mileage standards. The DoD annual mileage standard is 12,000 miles for
sedans and, 10,000 miles for light trucks. We classified sedans driven less than
6,000 miles and light trucks driven less than 5,000 miles in 2011 as excess. To estimate a
cost associated with these excess vehicles, we added the monthly lease cost for each
leased excess vehicle. We multiplied the total monthly lease costs by 12 to calculate the
annual lease expense.

Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. Navy, DLA, PFPA, and WHS
had internal control weaknesses because they did not assess their requirements for
nontactical fleet vehicles in the NCR. This occurred for reasons such as staffing
shortages and staff turnover. Further, fleet managers were unaware of or lacked the
authority to enforce the requirements to conduct annual reviews and maintain daily
mileage logs, they lacked clear guidance from management, or they determined vehicle
usage in 2011 would not be indicative of 2012 vehicle fleet needs due to ongoing
organization realignments. In addition, DLA personnel inappropriately obtained
transportation services to supplement DLA’s vehicle fleet because personnel incorrectly
used a Government purchase card. We will provide a copy of the report to the senior
official responsible for internal controls in the Navy, DLA, PFPA, and WHS.




                                              2
Finding A. Improved Controls Needed to
Assess Requirements for Vehicles
The Navy, DLA, PFPA, and WHS did not have effective controls to accurately assess
their requirements for 774 staff vehicles, costing $2 million, in their respective NCR
vehicle fleets in 2011. Specifically:

    • Navy, DLA, PFPA, and WHS fleet managers did not perform annual mileage
      reviews of staff vehicles;
    • Navy, DLA, and WHS fleet managers did not maintain adequate daily mileage
      logs; and
    • DLA and WHS fleet managers did not centrally manage their NCR vehicle fleets.

This occurred because fleet managers experienced staffing shortages and staff turnover,
and they were unaware of or lacked the authority to enforce the requirements to conduct
annual reviews and maintain daily mileage logs. In addition, fleet managers lacked clear
guidance from management and did not prioritize the task to identify excess vehicles. As
a result, 511 staff vehicles were excess in 2011, including 89 that were driven under
1,000 miles, with annual base lease costs of about $1.2 million. Eliminating these excess
vehicles would save about $7.2 million over the next 6 years. During the audit, PFPA
initiated corrective action and eliminated 15 excess vehicles with base annual lease costs
of $49,000. See Appendix D for a listing of potential monetary benefits by account.

In addition, NCIS and PFPA directors did not demonstrate that they were effectively
managing 335 law enforcement vehicles because they did not establish required
nonmileage guidelines. As a result, NCIS and PFPA fleet managers could be acquiring
more vehicles than they need.

Vehicle Fleet Regulations and Excess Determination
DoD Regulation 4500.36-R provides standards for the use of nontactical vehicles.
Specifically, it establishes minimum mileage standards for different classes of vehicles.
For example, the regulation requires sedans to be driven a minimum of 12,000 miles a
year. We classified vehicles that fell below half of this standard as excess––a sedan with
less than 6,000 miles of use in 2011 would be considered excess. Table 1 specifies the
minimum mileage standards for each vehicle type outlined in the DoD regulation and our
threshold for the determination of which vehicles were excess.




                                            3
                     Table 1. Annual Vehicle Mileage Standards
                     Annual Mileage     Vehicles Considered Excess if Driven
    Vehicle Type       Standard        Less Than This Amount of Miles in 2011
    Sedan                12,000                         6,000
    Light Truck          10,000                         5,000
    Heavy Truck           7,500                         3,750
    Bus                   9,000                         4,500

The DoD regulation requires vehicles that do not meet the minimum mileage standards
be reviewed annually for possible reassignment or elimination.

The DoD regulation also requires the Components to maintain records that provide a
detailed history of each vehicle’s daily use. This record should include the name of the
driver, the date of each trip, type of vehicle used, number of miles driven, and a
description of the purpose or destination of the trip. Additionally, the DoD regulation
requires the Components to establish nonmileage-based annual guidelines on vehicle use
if mileage is not an accurate measurement to justify the need of a particular vehicle.
Finally, the pooling of vehicles and establishment of a central collection point for the
collection of auditable operating data are required where geographically feasible.

Reviews of Vehicle Annual Mileage Usage Needed
Navy, DLA, PFPA, and WHS fleet managers did not perform annual mileage reviews of
774 staff vehicles costing $2 million. Specifically, the Navy fleet managers at
4 commands did not perform annual mileage reviews
for 584 staff vehicles costing $1.4 million annually,        Fleet managers did not
and DLA did not perform annual mileage reviews for           perform annual mileage
34 staff vehicles costing $105,000 annually. In            reviews  of 774 staff vehicles
addition, PFPA did not perform annual mileage                   costing $2 million.
reviews for 65 staff vehicles costing $201,000, and WHS did not perform annual mileage
reviews for 91 staff vehicles costing $342,000 annually. As a result, Navy, DLA, PFPA,
and WHS did not effectively manage their vehicle fleets and had 511 excess staff
vehicles costing $1.2 million annually.

Navy Components
The fleet managers at NAVFAC Washington, NRL, NEXCOM, and MWR did not
perform annual mileage reviews for 584 staff vehicles, costing $1.4 million annually, as
required by NAVFAC P-300, “Management of Civil Engineering Support Equipment,”
September 2003. NAVFAC P-300 is the primary vehicle fleet guidance for Navy fleet
managers and is issued by the Commander, NAVFAC. NAVFAC P-300 requires annual
mileage reviews of vehicle fleets to identify excess vehicles. The Navy fleet managers
did not perform annual mileage reviews for a variety of reasons, including staffing
shortages, staff turnover, and unawareness of the requirement. As a result, 359 of 584
staff vehicles in the NCR were excess vehicles with annual base lease costs of $742,000.


                                            4
Additionally, NAVFAC P-300 only requires the tracking of daily usage for centrally
pooled vehicles.

For the NCR, NAVFAC’s Navy Fleet Manager/Base Support Vehicles and Equipment
product line leader sets policy and guidance for fleet managers at NAVFAC Washington,
NRL, NEXCOM, MWR, and NCIS.

Naval Facilities Engineering Command
The NAVFAC Washington fleet manager did not effectively manage 546 staff vehicles
costing $1.3 million annually. Examination of the mileage showed that 331 of 546 staff
vehicles, costing $718,000 annually, were driven less than half of the DoD regulation
mileage standard and were excess. Of the
                                                        One 2008 Ford F-150 pickup
206 sedans, 137 were driven less than
                                                     truck, leased for $2,448 annually,
6,000 miles annually, including 7 sedans that
                                                         was driven only 712 miles.
were driven less than 1,000 miles annually. For
example, a 2008 Chevrolet Uplander was leased for $2,412 annually and was driven only
258 miles. Of the 96 light trucks, 66 were driven less than 5,000 miles annually,
including 5 trucks that were driven less than 1,000 miles. For example, a 2008 Ford
F-150 pickup truck, leased for $2,448 annually, was driven only 712 miles. For
220 heavy trucks, 123 were driven less than 3,750 miles annually, including 34 trucks
that were driven less than 1,000 miles. For example, a 2002 Ford F-550 Super Duty
pickup truck, leased for $3,876 annually, was driven only 243 miles. Of the 24 buses,
5 were driven less than 4,500 miles annually, including one bus that was driven less than
1,000 miles. Figure 1 details the number of vehicles at NAVFAC Washington that met
mileage standards, were excess, or were driven less than 1,000 miles in 2011.




                                            5
              Figure 1. NAVFAC Washington 2011 Staff Vehicle Usage




              Green (top bar) = Driven more than or equal to half of mileage standard
              Yellow (middle bar) = Driven less than half of mileage standard but more than 1,000 miles
              Red (bottom bar) = Driven less than 1,000 miles


Only 15 sedans exceeded the minimum DoD annual mileage standard of 12,000 miles.
The fleet manager did not conduct the annual reviews of vehicles required by DoD and
Navy regulations because, as she stated, staffing
                                                      It was a waste of DoD funds to
shortages prevented her from doing so. She
                                                    lease or own 47 vehicles that were
cited retirements, rotations, and various excused
                                                      driven less than 1,000 miles in
absences of NAVFAC Washington employees
                                                                   2011.
as circumstances that prevented the team from
completing the reviews. It was a waste of DoD funds to lease or own 47 vehicles that
were driven less than 1,000 miles in 2011. The Commander, NAVFAC must improve
oversight of the vehicle fleet. The Commander, NAVFAC needs to establish and
implement procedures to track the completion of comprehensive annual reviews of
underperforming vehicles to identify vehicles that could be eliminated from the fleet.
Additionally, the Commander, NAVFAC needs to eliminate or justify the need for
331 vehicles considered excess.

Naval Research Laboratory
The NRL fleet manager did not effectively manage eight owned staff vehicles.
Examination of the mileage showed that four of the vehicles were driven less than
   One of two buses was driven      half the DoD regulation mileage standard and were
     only 639 miles in 2011.        excess. Three of six sedans were driven less than
                                    6,000 miles in 2011. One of two buses was driven
only 639 miles in 2011. Figure 2 details the number of vehicles at NRL that met
standards, were excess, or were driven less than 1,000 miles in 2011.




                                                         6
                          Figure 2. NRL 2011 Staff Vehicle Usage




              Green (top bar) = Driven more than or equal to half of mileage standard
              Yellow (Sedans bottom bar) = Driven less than half of mileage standard but more than 1,000 miles
              Red (Buses bottom bar) = Driven less than 1,000 miles


No sedans met the minimum DoD annual mileage standard of 12,000 miles. The NRL
fleet manager did not conduct the annual reviews of vehicles required by the DoD and
Navy regulations because of staff turnover. He was recently assigned to the position and
was unable to determine whether his predecessor had completed an annual review. The
Commanding Officer, NRL must improve oversight of the vehicle fleet by eliminating or
justifying the need for four vehicles considered excess.

Navy Exchange Service Command
The NEXCOM fleet manager did not effectively manage 13 leased staff vehicles costing
$41,000 annually. Examination of the mileage showed that eight staff vehicles, costing
$25,000 annually, were driven less than half of the DoD regulation mileage standard and
were excess. Three of four sedans were driven less than 6,000 miles annually, including
                                      a sedan that was driven less than 1,000 miles
     A 2009 Dodge Caravan was
                                      annually. For example, a 2009 Dodge Caravan was
   leased for $2,616 annually and
                                      leased for $2,616 annually and was driven only
      was driven only 713 miles.
                                      713 miles. Five of nine light trucks were driven
less than 5,000 miles annually, including a truck that was driven less than 1,000 miles.
Figure 3 details the number of vehicles at NEXCOM that met standards, were excess, or
were driven less than 1,000 miles in 2011.




                                                        7
                       Figure 3. NEXCOM 2011 Staff Vehicle Usage




              Green (top bar) = Driven more than or equal to half of mileage standard
              Yellow (middle bar) = Driven less than half of mileage standard but more than 1,000 miles
              Red (bottom bar) = Driven less than 1,000 miles


No sedans met the minimum DoD annual mileage standard of 12,000 miles. The fleet
manager did not conduct the annual reviews of vehicles required by DoD and Navy
regulations because he was unaware of the requirement. It was a waste of DoD funds to
lease two vehicles that were driven less than 1,000 miles in 2011. The Chief Executive
Officer, NEXCOM must improve oversight of the vehicle fleet by eliminating or
justifying the need for eight vehicles considered excess; perform a review of the failure to
meet standards required for the leasing of vehicles that were driven less than half of the
mileage standards; and as appropriate, initiate corrective measures and actions to hold
personnel accountable. Additionally, he needs to provide vehicle fleet management
training to the NEXCOM fleet manager to ensure personnel are aware of the
requirements in DoD Regulation 4500.36-R.

Navy Morale, Welfare, and Recreation
The MWR fleet manager did not effectively manage 17 owned staff vehicles.
Examination of the mileage showed that 16 of the 17 staff vehicles were driven less than
half the DoD annual mileage standard and were
classified as excess. All 6 sedans were driven        A 2003 Chevrolet 3500 truck was
less than 6,000 miles. All 6 trucks were driven             driven only 554 miles.
less than 5,000 miles annually, including 2 trucks that were driven less than 1,000 miles.
For example, a 1997 Chevrolet Astro van was driven only 123 miles. Both of MWR’s
heavy trucks were driven less than 3,750 miles annually, including a truck that was
driven less than 1,000 miles. For example, a 2003 Chevrolet 3500 truck was driven only
554 miles. Two of three buses were driven less than 4,500 miles annually, including a
bus that was driven less than 1,000 miles. For example, one bus was driven only
694 miles. Figure 4 details the number of vehicles at MWR that met mileage standards,
were excess, or were driven less than 1,000 miles in 2011.

                                                          8
                           Figure 4. MWR 2011 Staff Vehicle Usage




              Green (Buses top bar) = Driven more than or equal to half of mileage standard
              Yellow (Sedans only bar, Light Trucks and Heavy Trucks top bar, and Buses middle bar) = Driven less than half
                  of mileage standard but more than 1,000 miles
              Red (Light Trucks, Heavy Trucks, and Buses bottom bar) = Driven less than 1,000 miles


No sedans met the minimum DoD annual mileage standard. The fleet manager stated he
did not conduct annual reviews because he was unaware of the requirement. The
Commander, Navy Installations Command must improve oversight of the vehicle fleet by
eliminating or justifying the need for 16 excess vehicles; perform a review of the failure
to meet standards required for the leasing of vehicles that were driven less than half of the
mileage standards; and as appropriate, initiate corrective measures and actions to hold
personnel accountable. He also needs to provide vehicle fleet management training to
MWR fleet managers to ensure they are aware of the requirements in
DoD Regulation 4500.36-R.

Defense Logistics Agency
The DLA Installation Support, Ft. Belvoir, fleet manager did not effectively manage
34 staff vehicles, costing $105,000 annually. Examination of the mileage showed that
23 staff vehicles, costing $73,000 annually, were driven less than half of the DoD
mileage standard and were classified as excess. Of the 26 sedans, 16 were driven less
                                           than 6,000 miles annually, including 3 sedans
   A 2006 Chevrolet Silverado truck,       that were driven less than 1,000 miles
    leased for $3,756 annually…was         annually. Six of seven light trucks were driven
      driven only 875 miles in 2011.       less than 5,000 miles annually, including a
2006 Chevrolet Silverado, leased for $3,756 annually that was driven only 875 miles in
2011. DLA’s only heavy truck was driven less than 3,750 miles in 2011. Figure 5 details
the number of vehicles at DLA that met standards, were excess, or were driven less than
1,000 miles in 2011.



                                                         9
                           Figure 5. DLA 2011 Staff Vehicle Usage




              Green (Sedans and Light Trucks top bar) = Driven more than or equal to half of mileage standard
              Yellow (Sedans and Light Trucks middle bar and Heavy Trucks bar) = Driven less than half of mileage standard
                  but more than 1,000 miles
              Red (bottom bar) = Driven less than 1,000 miles


Only 4 sedans exceeded the minimum DoD annual mileage standard of 12,000 miles.
The Ft. Belvoir fleet manager did not conduct the annual reviews of vehicles required by
the DoD regulation because, as he stated, he was unaware of the requirement. Further,
DLA’s implementing guidance for vehicle fleet management, DLA Instruction 4214,
“Support Equipment Management,” September 22, 2009, did not require annual mileage
reviews. It was a waste of DoD funds to lease 4 vehicles that were driven less than
1,000 miles in 2011. The Director, DLA must improve oversight of the vehicle fleet by
revising DLA Instruction 4214 to require fleet managers to conduct comprehensive
annual reviews of underperforming vehicles to identify vehicles that could be eliminated
from the fleet. Additionally, the Director, DLA needs to provide vehicle fleet
management training to fleet managers to ensure they are aware of the requirements in
DoD Regulation 4500.36-R. The Director, DLA also needs to eliminate or justify the
need for 23 vehicles considered excess; perform a review of the failure to meet standards
required for the leasing of vehicles that were driven less than half of the mileage
standards; and as appropriate, initiate corrective measures and actions to hold personnel
accountable.




                                                        10
Pentagon Force Protection Agency
The PFPA fleet manager did not effectively manage 65 staff vehicles costing $201,000
annually. Examination of the mileage showed that 58 staff vehicles, costing $177,000
annually, were driven less than half of the DoD regulation mileage standard and were
classified as excess. Of the 44 sedans, 39 were driven less than 6,000 miles annually,
including 7 sedans that were driven less than 1,000 miles annually. For example, a 2010
                                       Chevrolet CG3300 passenger van, leased for
     A 2010 Chevrolet CG3300           $3,168 annually, was driven only 583 miles. Of
      passenger van, leased for        the 21 light trucks, 19 were driven less than
    $3,168 annually, was driven        5,000 miles annually, including 12 trucks that were
            only 583 miles.            driven less than 1,000 miles. Figure 6 details the
number of vehicles at PFPA that met mileage standards, were excess, or were driven less
than 1,000 miles in 2011.

                           Figure 6. PFPA 2011 Staff Vehicle Usage




               Green (top bar) = Driven more than or equal to half of mileage standard
               Yellow (middle bar) = Driven less than half of mileage standard but more than 1,000 miles
               Red (bottom bar) = Driven less than 1,000 miles


No sedans met the minimum annual mileage standard of 12,000 miles. The fleet manager
did not conduct the annual reviews of vehicles required by the DoD regulation. PFPA’s
Assistant Director of Mission Integration stated that because of PFPA’s 2011
realignment, vehicle usage in 2011 would not be indicative of its 2012 vehicle fleet
needs. We found the guidance for vehicle fleet management, PFPA Regulation
No. 0008, “Management and Operation of PFPA Vehicles,” June 17, 2011, did not
require annual mileage reviews. It was a waste of DoD funds to lease 19 vehicles that
were driven less than 1,000 miles in 2011.




                                                         11
The Director, PFPA initiated corrective actions during the audit. On January 18, 2013,
the director revised PFPA Regulation No. 0008 to require PFPA fleet managers to
conduct comprehensive annual reviews of underperforming vehicles to identify vehicles
that could be eliminated from the fleet. On January 31, 2013, the director removed
15 excess vehicles from its fleet and in December 2012, reassigned 15 excess vehicles to
PFPA’s central motor pool. In addition, PFPA officials justified the remaining vehicles
that did not meet standards by conducting a review of their agency’s vehicle fleet in
September 2012. The Director, PFPA needs to perform a review of the failure to meet
standards required for the leasing of vehicles that were driven less than half of the
mileage standards and, as appropriate, initiate corrective measures and actions to hold
personnel accountable.

Washington Headquarters Services
The WHS fleet manager did not effectively manage 91 staff vehicles costing $342,000
annually. Examination of the mileage showed that 71 staff vehicles, costing $252,000
annually, were driven less than half of the DoD regulation mileage standard and were
excess. For 46 sedans, 39 were driven less than 6,000 miles annually, including 6 sedans
that were driven less than 1,000 miles annually. For example, a 2007 Chevrolet Uplander
was leased for $2,616 annually and was driven only 659 miles.

Of the 32 light trucks, 24 were driven less than 5,000 miles annually, including 4 trucks
that were driven less than 1,000 miles. For example, one 2007 Dodge Ram 2500, leased
for $3,360 annually, was driven only 552 miles. Four of five heavy trucks were driven
less than 3,750 miles annually, including two that were driven less than 1,000 miles. For
                                    example, a 2007 Ford F-750, leased for $4,620
   A 2007 Ford F-750, leased
                                    annually, was driven only 37 miles. Four of eight
     for $4,620 annually, was
                                    buses were driven less than 4,500 miles annually.
       driven only 37 miles.
                                    Figure 7 details the number of vehicles at WHS that
met mileage standards, were excess, or were driven less than 1,000 miles in 2011.




                                           12
                             Figure 7. WHS 2011 Staff Vehicle Usage




        Green (top bar) = Driven more than or equal to half of mileage standard
        Yellow (Sedans, Light Trucks, and Heavy Trucks middle bar and Buses bottom bar) = Driven less than half of mileage
            standard but more than 1,000 miles
        Red (Sedans, Light Trucks, and Heavy Trucks bottom bar) = Driven less than 1,000 miles


Only 2 sedans exceeded the minimum DoD annual mileage standard of 12,000 miles.
The fleet manager did not conduct the annual reviews of vehicles required by the
DoD regulation because, as he stated, he was unaware of the requirement. Further, the
Director, WHS did not develop guidance for vehicle fleet management. It was a waste of
DoD funds to lease 12 vehicles that were driven less than 1,000 miles in 2011. The
Director, WHS must improve oversight of the vehicle fleet by establishing procedures
requiring WHS fleet managers to conduct comprehensive annual reviews of
underperforming vehicles to identify vehicles that could be eliminated from the fleet.
Additionally, the director needs to provide vehicle fleet management training to fleet
managers to ensure they are aware of the requirements in DoD Regulation 4500.36-R.
The director also needs to eliminate or justify the need for 71 vehicles considered excess;
perform a review of the failure to meet standards required for the leasing of vehicles that
were driven less than half of the mileage standards; and as appropriate, initiate corrective
measures and actions to hold personnel accountable.

Daily Mileage Logs Needed for Effective Management
Navy, DLA, and WHS fleet managers did not maintain adequate daily mileage logs as
required by the DoD regulation. The regulation requires that daily mileage logs include
the name of the driver, the date of each trip, type of vehicle used, number of miles driven,
and a description of the purpose or destination of the trip. Of the 244 mileage logs
reviewed for the Navy, DLA, and WHS, 200 did not include the required information.




                                                          13
Navy Components
Of the 119 Navy vehicles tested, 111 did not have adequate daily mileage logs.
Specifically, 68 of 70 NAVFAC Washington, 5 of 8 NRL, 13 of 14 NEXCOM, and 25 of
27 MWR staff vehicles did not have adequate daily mileage logs. This occurred because
NAVFAC P-300, “Management of Civil Engineering Support Equipment,”
                                          September 2003, requires only the tracking of
    Of the 119 Navy vehicles tested,
    111 did not have adequate daily       daily usage for centrally pooled vehicles.
              mileage logs.               However, only 96 of 633 NAVFAC
                                          Washington staff and law enforcement vehicles
were centrally pooled. In addition, NRL managers cited procedural errors in maintaining
daily mileage logs, while NEXCOM managers stated that they were unaware of the DoD
requirement to track daily vehicle usage. For MWR fleet managers, organizational
changes and a lack of clear guidance contributed to their inability to maintain adequate
daily mileage logs. As a result, the Navy fleet managers could not accurately assess
adherence to the requirements for nontactical vehicles in the NCR. The Commander,
NAVFAC needs to revise NAVFAC P-300, “Management of Civil Engineering Support
Equipment,” September 2003, to require the maintenance of daily mileage logs for all
vehicles. Table 2 lists the number of inadequate daily mileage logs identified at each
Navy subcomponent audited.

                     Table 2. Inadequate Daily Mileage Logs
                                                      Inadequate
                Subcomponent Vehicles Tested             Logs
                NAVFAC                    70                  68
                NRL                       8                    5
                NEXCOM                    14                  13
                MWR                       27                  25
                 Total                   119                  111

Defense Logistics Agency
At DLA, all 34 staff vehicles tested did not have adequate daily mileage logs. The lack
of adequate daily logs occurred because the Ft. Belvoir fleet manager did not direct
drivers to keep daily mileage logs. As a result, DLA fleet managers could not accurately
assess adherence to requirements for nontactical vehicles in the NCR. The Director,
DLA needs to require all DLA vehicle users to maintain adequate daily mileage logs.

Washington Headquarters Services
At WHS, 55 of 91 staff vehicles did not have adequate daily mileage logs. The lack of
adequate daily mileage logs occurred because the fleet manager lacked the authority due
to WHS’s organizational structure to require drivers to maintain adequate logs. As a
result, WHS fleet managers could not accurately assess adherence to the requirements for
nontactical vehicles in the NCR. The WHS fleet manager stated that management

                                           14
reorganization 1 in May 2011 gave him the authority to require daily mileage logs. At the
time of our site visit, the WHS fleet manager had not exercised this authority to require
the completion of daily mileage logs. The Director, WHS needs to require all drivers to
maintain adequate daily mileage logs.

Central Management for Vehicle Fleet Operations
DLA and WHS fleet managers did not centrally manage their NCR vehicle fleets. The
DoD regulation requires the pooling of vehicles and a central point for the collection of
                                       auditable operating data, such as daily mileage and
   DLA and WHS fleet managers          maintenance logs, where geographically feasible.
   did not centrally manage their      At DLA, 34 of 40 vehicles were assigned to the
        NCR vehicle fleets.            McNamara Complex at Fort Belvoir and 6 were
assigned to other locations within NCR. Of the 34 vehicles at the McNamara Complex,
27 were staff vehicles. Of the 27 staff vehicles, 8 were in a central motor pool and
19 were assigned to individual components within DLA. This occurred because the DLA
fleet managers did not have the organizational structure and oversight in place to direct
and require the central management of vehicles. As a result of not centrally managing
these vehicles, components within DLA were less likely to share vehicles that were not
frequently used, leading to more vehicles not meeting the annual DoD mileage standards.
The location of these vehicles made it geographically feasible and more efficient for the
Director, DLA to centrally manage DLA’s vehicle fleet in the NCR.

WHS had a similar situation. Of the 91 staff vehicles, 55 were located at the Pentagon
and the remaining vehicles were at other various NCR locations. All of the 55 vehicles at
the Pentagon were assigned to components within WHS and could have been maintained
in a central motor pool. As a result of not centrally managing these vehicles, the
components within WHS were less likely to share vehicles that were not frequently used,
leading to more vehicles not meeting annual DoD mileage standards. The location of
these vehicles made it geographically feasible and more efficient for the Director, WHS
to centrally manage the WHS vehicle fleet in the NCR. The WHS fleet manager stated
that, in the past, WHS lacked the authority to compel components to centralize the
vehicles. In May 2011, WHS reorganized its management structure to provide sufficient
authority to require centralized fleets. The Director, WHS needs to centrally manage its
vehicle fleet.

No Guidelines for the Nonmileage Use of NCIS and PFPA
Law Enforcement Vehicles
NCIS and PFPA did not effectively manage law enforcement vehicles because they did
not establish guidelines for nonmileage annual use of law enforcement vehicles. The
DoD regulation requires an agency to establish other annual guidelines if mileage is not
an appropriate measure for use. NCIS fleet managers did not create a performance-based


1
 The reorganization moved WHS’s vehicle fleet management to the newly created Enterprise Management
Directorate.

                                                15
metric to determine the number of vehicles to assign to each field office. Instead, NCIS
set a goal of assigning one vehicle to each special agent in its February 8, 2006,
memorandum “Calculation of NCIS Field Office Vehicle Allowance.” This occurred
because NCIS did not believe that a performance-based metric was an appropriate
method for determining its vehicle fleet needs.

NCIS’s Vehicle Fleet
NCIS agents primarily used law enforcement vehicles to perform investigations,
surveillance, and protective duties. NCIS’s vehicle fleet was composed primarily of
commercially leased sedans, which were assigned to special agents. NCIS’s nontactical
vehicle fleet in the NCR consisted of 125 law enforcement vehicles, 91 of which did not
meet DoD mileage use standards. This would imply that most of the nontactical vehicles
                              were not used very often. For example, a 2009 Dodge
  A 2009 Dodge Avenger        Avenger was driven only 354 miles in 2011. However,
    was driven only 354       because of how NCIS used the cars, mileage might not be
       miles in 2011.         the most appropriate way to measure vehicle use. By not
assessing the usage and need of the vehicles they already had, NCIS fleet managers could
be acquiring more vehicles than needed. The Director, NCIS should establish
nonmileage-based guidelines for annual use for its law enforcement vehicles to ensure
efficient use of resources and a more accurate assessment of vehicle needs.

Additionally, all 13 NCIS law enforcement vehicles tested did not maintain daily mileage
logs. NCIS fleet managers did not maintain daily mileage logs because drivers did not
see it as a priority and NCIS-1, Chapter 32, “Vehicle Management Program,”
December 2007, did not require the maintenance of daily mileage logs. As a result, NCIS
fleet managers could not accurately assess adherence to the requirements for law
enforcement vehicles in the NCR. The Director, NCIS needs to revise NCIS-1,
Chapter 32, to require the maintenance of daily mileage logs for all vehicles.

PFPA’s Vehicle Fleet
PFPA’s NCR nontactical vehicle fleet included 210 law enforcement vehicles with an
annual base lease cost of $834,000. PFPA used law enforcement vehicles for a variety of
purposes, including stationary security vehicles on the Pentagon Reservation. Many of
PFPA’s law enforcement vehicles were frequently in use, but stationary because of
PFPA’s mission needs. As a result, mileage was not an appropriate way to measure the
use of these vehicles. Nonetheless, the DoD regulation requires that PFPA establish
other guidelines for annual use.

PFPA did not consider other nonmileage performance metrics, such as hours used,
because its primary focus was on the quantity of vehicles needed to meet mission needs
and PFPA Regulation No. 0008, “Management and Operation of PFPA Vehicles,”
June 17, 2011, did not require PFPA to establish other nonmileage performance metrics.
By not assessing the usage and need of the vehicles it already had, PFPA fleet managers
could be acquiring more vehicles than needed. The Director, PFPA should establish
nonmileage-based guidelines for annual use of PFPA law enforcement vehicles to ensure
efficient use of resources and a more accurate assessment of PFPA’s vehicle needs.

                                           16
Short-Term Leasing and Rental Options
The Components reviewed generally did not use short-term leasing and rental options to
satisfy their vehicle needs. The DoD regulation requires the Components to use
short-term leasing, borrow vehicles from other Government agencies, or use privately
owned vehicles on a reimbursable basis to meet peak load requirements. The Navy,
DLA, PFPA, and WHS could meet their short-term vehicle needs more economically by
making fewer purchases and increasing the use of short-term leasing. The Navy, DLA,
PFPA, and WHS fleet managers need to research alternatives to traditional vehicle
leasing and purchasing to meet their vehicle fleet needs.

Conclusion
Navy, DLA, PFPA, and WHS had 511 more vehicles than they needed in their NCR
vehicle fleets. Taking corrective actions could save DoD $7.2 million in lease costs over
the next 6 years. This resulted from the Navy, DLA, PFPA, and WHS not establishing
effective controls to accurately assess their requirements for nontactical vehicles. In this
respect, the Navy, DLA, PFPA, and WHS need to conduct annual mileage reviews,
maintain adequate daily mileage logs, centrally manage their vehicle fleets, and establish
nonmileage performance metrics to efficiently manage their vehicle fleet operations.

Mileage is not the only measure of the need for a vehicle, which is why we are
recommending the elimination of, or justification for, excess vehicles. Geographic
isolation or specific mission requirements may keep some vehicles from meeting mileage
standards.

Recommendations, Management Comments, and Our
Response
A.1. We recommend that the Commander, Naval Facilities Engineering Command:

        a. Eliminate 331 excess vehicles or justify the need for these vehicles.
Justifications for vehicles that cannot be eliminated must include an explanation of
why short-term leases or other alternatives to leasing or purchasing cannot be used.

Commander, Naval Facilities Engineering Command
Comments
The Inspector General, Naval Facilities Engineering Command partially agreed with the
recommendation. The Inspector General stated that while a portion of the 331 vehicles
identified at Naval Facilities Engineering Command Washington may be able to be
returned to the General Services Administration or disposed of, a thorough review of the
justifications provided during the last Transportation Review of Inventory Objectives (an
internal review of transportation support) is required. The Inspector General further
stated that mileage is not the only factor used to determine a vehicle requirement and
gave examples of other metrics to measure utilization such as days of use or the number
of trips in a given time frame. In addition, due to budget cuts, Naval Facilities


                                             17
Engineering Command Washington is reviewing vehicle assignments to determine where
vehicle reductions will have the least impact on supporting mission requirements.

Our Response
Comments from the Inspector General, Naval Facilities Engineering Command were
partially responsive. The Inspector General did not specify when the Naval Facilities
Engineering Command would review justifications provided in the Transportation
Review of Inventory Objectives. We request the Commander provide additional
comments, stating when the planned review will be completed, the number of vehicles
eliminated, and whether short-term leases or other alternatives to leasing or purchasing
can be used. We also request comment on the potential monetary benefits identified in
Finding A and Appendix D of the report.

        b. Revise NAVFAC P-300, “Management of Civil Engineering Support
Equipment,” September 2003, to require the maintenance of daily mileage logs for
all vehicles in accordance with DoD Regulation 4500.36-R, “Management,
Acquisition, and Use of Motor Vehicles,” March 16, 2007.

Commander, Naval Facilities Engineering Command
Comments
The Inspector General, Naval Facilities Engineering Command did not agree with the
recommendation. The Inspector General stated that NAVFAC P-300 is currently under
revision; however the DoD 4500.36-R does not require daily mileage logs for all
vehicles. DoD Regulation 4500.36-R was referenced which states that components can
establish an automated or paper copy of motor vehicle utilization data which collect the
minimum data elements for an automated trip report. Naval Facilities Engineering
Command has established MAXIMO as the automated system to collect this data and
dispatch vehicles. Class B (permanently assigned) vehicle mileage data is collected
several ways: through automated fuel transactions, maintenance records, and/or a
monthly mileage report which is provided to the Base Support Vehicles and Equipment
Manager for input into MAXIMO and used for billing purposes. Class C (short-term
rental) vehicles are also dispatched through MAXIMO and the required information is
collected at the time of dispatch. In addition, Naval Facilities Engineering Command
Washington is implementing Global Positioning System (GPS) tracking on select
vehicles to collect this data.

Our Response
Comments from the Inspector General, Naval Facilities Engineering Command were not
responsive. DoD Regulation 4500.36-R requires components to keep daily mileage logs,
specifically it states that components can establish an automated or paper copy of motor
vehicle utilization data which collects the data elements as shown at Table C3.1,
“Minimum Data Elements for Automated Trip Report.” While the regulation does allow
components to keep daily mileage logs in a paper or electronic format, this should not be
interpreted that daily mileage logs are optional. The Naval Facilities Engineering

                                            18
Command’s practice of recording vehicle mileage for Class B vehicles does not meet the
requirement for daily trip reporting in DoD Regulation 4500.36-R because it collects
mileage infrequently—when fuel is purchased for vehicles, when maintenance is
performed, or in a monthly mileage report. Relying on mileage reported when fuel is
purchased, maintenance is performed, or in a monthly mileage report does not give Naval
Facilities Engineering Command management the visibility to identify low-mileage
vehicles that are used frequently. The Naval Facilities Engineering Command may be
able to collect this information through alternatives to traditional paper mileage reports
such as GPS tracking. We request the Commander provide additional comments
explaining how it plans to implement the recommendation including identifying which
vehicles Naval Facilities Engineering Command is using GPS to collect data for.

        c. Establish and implement procedures to verify that fleet managers at Naval
Facilities Engineering Command Washington, Naval Research Laboratory, Navy
Exchange Service Command, and Morale, Welfare, and Recreation are aware of
existing guidance and track the completion of comprehensive annual reviews to
identify underperforming vehicles for possible elimination from their fleets.

Commander, Naval Facilities Engineering Command
Comments
The Inspector General, Naval Facilities Engineering Command partially agreed with the
recommendation. The Inspector General stated that the Navy holds a 1-day annual
training class in conjunction with the General Services Administration sponsored
FedForum, but cancelled this year due to sequestration. During the training, Naval
Facilities Engineering Command’s Base Support Vehicles and Equipment division
provides updated guidance on inventory management, vehicle requirements generation,
purchasing/leasing, procedures for reviewing and validating vehicle requirements. The
fleet managers for NEXCOM and MWR attend these training sessions and are
responsible for disseminating information to their subordinate commands. Naval
Facilities Engineering Command Atlantic is responsible for ensuring Naval Facilities
Engineering Command Washington and Naval Research Laboratory are maintaining
proper vehicle records and provides oversight over the fleet management program in their
area of responsibility. The Naval Facilities Engineering Command is in the process of
implementing a policy to establish utilization criteria for every vehicle, the process for
review, validation and approval, reporting requirements in accordance with the
Presidential Memorandum “Federal Fleet Performance” of May 2011.

Our Response
Comments from the Inspector General, Naval Facilities Engineering Command were
partially responsive. We request the Commander provide additional comments
explaining the implementation of the policy to establish utilization criteria for every
vehicle, the process for review, validation and approval, reporting requirements, and
specify when the revisions to NAVFAC P-300 will occur.



                                            19
A.2. We recommend that the Commanding Officer, Naval Research Laboratory,
eliminate four excess vehicles or justify the need for these vehicles. Justifications for
vehicles that cannot be eliminated must include an explanation of why short-term
leases or other alternatives to leasing or purchasing cannot be used.

Commanding Officer, Naval Research Laboratory
Comments
The Commanding Officer, Naval Research Laboratory partially agreed with the
recommendation and justified why short-term leases or other alternatives to leasing or
purchasing cannot be used to replace the four excess vehicles. The Commanding Officer
noted increased usage of the Naval Research Laboratory’s bus identified in the report and
stated that short-term lease costs are greater than current operation and maintenance costs
for Naval Research Laboratory buses. The Commanding Officer cited non-predictive
transportation requirements, the simultaneous use of vehicles, and emergent mission
tasking (for example, no-notice briefings) in his justification of underperforming sedans.

Our Response
Comments from the Commanding Officer, Naval Research Laboratory were responsive.
No further comments are required.

A.3. We recommend that the Chief Executive Officer, Navy Exchange Service
Command:

        a. Eliminate eight excess vehicles or justify the need for these vehicles.
Justifications for vehicles that cannot be eliminated should include an explanation of
why short-term leases or other alternatives to leasing or purchasing cannot be used.

Commander, Naval Supply Systems Command
Comments
The Commander, Naval Supply Systems Command provided comments to the report on
behalf of the Chief Executive Officer, Navy Exchange Service Command. The
Commander did not agree with the recommendation. The Commander stated that
mileage as the primary criteria to determine if a vehicle is required in a non-appropriated
funded, bottom-line driven, profit-oriented business, such as Navy Exchange Service
Command is impractical. The Commander also stated that a lack of flexibility and
inappropriate usage standards will result in lost sales and profits.

Our Response
Comments from the Commander, Naval Supply Systems Command were not responsive.
DoD Regulation 4500.36-R specifically states that it is applicable to Military Exchanges
and non-appropriated fund activities. DoD Regulation 4500.36-R also states that other
annual utilization guidelines should be established if mileage is not an accurate
measurement of the need for a particular vehicle. Navy Exchange Service Command has
not implemented a regulation governing vehicle fleet management or identified an
                                            20
alternative metric for measuring utilization of vehicles. The Commander’s comments
mention a profit oriented business but did not explain why a profit-oriented business
would lease a van and a truck and use them less than 1,000 miles annually. We request
that the Chief Executive Officer, Navy Exchange Service Command provide additional
comments explaining the plan to eliminate or justify the excess vehicles. We also request
comments on the potential monetary benefits identified in Finding A and Appendix D of
the report.

       b. Perform a review of the failure to meet standards required for the leasing
of vehicles that were driven less than half of the mileage allowed by DoD Regulation
4500.36-R, “Management, Acquisition, and Use of Motorized Vehicles,”
March 16, 2007, and as appropriate, initiate corrective measures and actions to hold
personnel accountable.

Commander, Naval Supply Systems Command
Comments
The Commander, Naval Supply Systems Command did not agree with this
recommendation. The Commander stated that mileage as the primary criteria to
determine if a vehicle is required in a non-appropriated funded, bottom-line driven,
profit-oriented business, such as Navy Exchange Service Command is impractical.

Our Response
Comments from the Commander, Naval Supply Systems Command were not responsive.
DoD Regulation 4500.36-R specifically states that it is applicable to Military Exchanges
and non-appropriated fund activities. DoD Regulation 4500.36-R also states that other
annual utilization guidelines should be established if mileage is not an accurate
measurement of the need for a particular vehicle. Navy Exchange Service Command has
not implemented a regulation governing vehicle fleet management or identified an
alternative metric for measuring utilization of vehicles. We request that the Chief
Executive Officer, Navy Exchange Service Command provide additional comments
explaining how the organization will perform the accountability review cited in the
recommendation.

       c. Provide training to the Navy Exchange Service Command fleet managers
to ensure they are aware of the vehicle fleet management requirements in DoD
Regulation 4500.36-R, “Management, Acquisition, and Use of Motor Vehicles,”
March 16, 2007.

Commander, Naval Supply Systems Command
Comments
The Commander, Naval Supply Systems Command did not agree with this
recommendation. The Commander stated that DoD Regulation 4500.36-R is not
practical nor in alignment with a $3 billion retail and services non-appropriated fund
enterprise. The Commander also stated that the fleet manager for the Navy Exchange

                                            21
Service Command Enterprise annually attends the Federal Fleet Week and Navy Fleet
training sessions.

Our Response
Comments from the Commander, Naval Supply Systems Command were not responsive.
The Commander does not explain why a DoD regulation applicable to all of DoD is not
applicable to the Navy Exchange Service. The Navy Exchange Service Command's
Bethesda fleet manager was unaware of the requirement to perform formal documented
reviews and maintain mileage logs in accordance with DoD Regulation 4500.36-R. The
regulation specifically states that it is applicable to Military Exchanges and
non-appropriated fund activities. Because the Navy Exchange Service Command fleet
managers were unaware of the requirements in the regulation, the Navy Exchange
Service Command had 8 excess staff vehicles with annual based lease costs of $24,516
and the staff failed to maintain daily mileage logs for 13 of the 14 vehicles audited. We
request that the Chief Executive Officer, Navy Exchange Service Command provide
additional comments on the recommendation to provide management training to the
Navy Exchange Service Command fleet managers on vehicle fleet management
requirements.

Commander, Naval Supply Systems Command
Comments
The Commander, Naval Supply Systems Command provided additional comments to the
report. The Commander stated that the DoD IG did not include Naval Supply Systems
Command in entrance or exit conferences for this audit. Also, the Commander stated that
the DoD IG did not afford Naval Supply Systems Command the opportunity to review
and comment on the preliminary draft report in early 2013. The Commander requested
that in the future, Naval Supply Systems Command Headquarters be notified of any
audits involving the Naval Supply Systems Command Enterprise. The Commander went
on to state that had Naval Supply Systems Command been provided the opportunity, it
would have allowed the Commander to track audit findings and address audit concerns as
they developed.

Our Response
It is unfortunate that the Commander was not informed of the extensive communication
during the audit between the DoD OIG Audit Team and his command. The DoD OIG
team coordinated throughout the audit with the command and site-level Navy Exchange
Service Command points of contact provided. The DoD OIG team provided the
discussion draft report to the points of contact it was given at the Navy Exchange Service
Command on December 21, 2012 and received comments on the discussion draft report
from those contacts on January 24, 2013. The DoD OIG team met twice with Navy
Exchange Service Command and Naval Supply Systems Command staff after the draft
report was issued on March 25, 2013. The DoD OIG also granted the Navy Exchange
Service Command a one week extension to prepare their responses to the draft report.



                                            22
A.4. We recommend that the Commander, Navy Installations Command:

        a. Eliminate 16 excess vehicles or justify the need for these vehicles.
Justifications for vehicles that cannot be eliminated should include an explanation of
why short-term leases or other alternatives to leasing or purchasing cannot be used.

Commander, Navy Installations Command Comments
The Inspector General, Navy Installations Command agreed with the recommendation.
The Inspector General stated that the Navy Region, Naval District Washington will
reduce command assigned vehicles by over 70 units by the end of June 2013. The
Inspector General also stated that a thorough analysis of all vehicles is in progress to
determine the need to retain all or some of them. The analysis will be completed by
September 30, 2013.

Our Response
Comments from the Inspector General, Navy Installations Command were responsive. In
response to the final report, we request the Commander identify the total number of
vehicles eliminated and the costs saved from eliminating the 70 vehicles.

       b. Perform a review of the failure to meet standards required for the
retention of vehicles that were driven less than half of the mileage allowed by DoD
Regulation 4500.36-R, “Management, Acquisition, and Use of Motorized Vehicles,”
March 16, 2007, and as appropriate, initiate corrective measures and actions to hold
personnel accountable.

Commander, Navy Installations Command Comments
The Inspector General, Navy Installations Command agreed with the recommendation.
The Inspector General stated that the Naval District Washington is reviewing all vehicle
usage as part of FY 2013 sequestration budget reductions. Some low-mileage vehicles
are justified due to remote location or one of a kind mission application for the vehicle.
Naval District Washington's review will be complete by the end of FY 2013.

Our Response
Comments from the Inspector General, Navy Installations Command were generally
responsive. Although the Inspector General agreed, the response did not address whether
an accountability review occurred as cited in the recommendation. In response to the
final report, we request the Commander, Navy Installations Command state whether any
personnel were identified and held accountable for not identifying underutilized vehicles.

       c. Provide training to Morale, Welfare, and Recreation fleet managers to
ensure they are aware of the vehicle fleet management requirements in DoD
Regulation 4500.36-R, “Management, Acquisition, and Use of Motor Vehicles,”
March 16, 2007.


                                            23
Commander, Navy Installations Command Comments
The Inspector General, Navy Installations Command agreed with the recommendation.
The Inspector General stated that fleet management training will be provided to all
Morale, Welfare, and Recreation fleet managers to ensure awareness of requirements
from DoD Regulation 4500.36-R in addition to the NAVFAC P-300 by the end of
FY 2013.

Our Response
Comments from the Inspector General, Navy Installations Command were responsive.
No further comments are required.

A.5. We recommend that the Director, Naval Criminal Investigative Service:

      a. Establish nonmileage-based usage guidelines for law enforcement vehicles
and annually track their usage.

Director, Naval Criminal Investigative Service Comments
The Acting Director, Naval Criminal Investigative Service agreed with the
recommendation. The Acting Director stated that the Naval Criminal Investigative
Service developed a Vehicle Allocation Methodology program governing Fiscal
Year’s 2013-2016 in which the methodology would include a comprehensive fleet
management system for vehicles that include changes in behavior, leasing, and operations
and allocates vehicles based on the investigative and operational activity at each field
office. As a result, the Naval Criminal Investigative Service reduced its compliment of
SUVs from 40 percent to 10 percent.

Our Response
Comments from the Acting Director, Naval Criminal Investigative Service were partially
responsive. The Acting Director did not provide information explaining how this
methodology will allocate vehicles to field offices. In response to the final report, we
request the Acting Director, Naval Criminal Investigative Service state how this
methodology will establish nonmileage-based usage guidelines for law enforcement
vehicles and annually track their usage.

      b. Revise Naval Criminal Investigative Service-1, Chapter 32, “Vehicle
Management Program,” to require that drivers maintain daily mileage logs in
accordance with DoD Regulation 4500.36-R, “Management, Acquisition, and Use of
Motor Vehicles,” March 16, 2007.

Director, Naval Criminal Investigative Service Comments
The Acting Director, Naval Criminal Investigative Service did not agree with the
recommendation. The Acting Director stated that as officials of a law enforcement and
counterintelligence organization, it is imperative that special agents be able to travel in a

                                              24
manner that provides optimal operational security and that any record that provides
mileage, destination or travel times poses unnecessary risk to both agent safety and
operations. The Acting Director also stated that the Naval Criminal Investigative Service
intends to pursue a waiver to the current requirement to maintain daily mileage.

Our Response
Comments from the Acting Director, Naval Criminal Investigative Service were partially
responsive. DoD Regulation 4500.36-R, “Management, Acquisition, and Use of Motor
Vehicles” March 16, 2007 requires that drivers maintain daily mileage logs. The Naval
Criminal Investigative Service should consider alternatives to maintaining daily mileage
logs in vehicles such as electronic logs or maintaining mileage logs in safes at Naval
Criminal Investigative Service field offices. In response to the final report, we request
the Acting Director, Naval Criminal Investigative Service provide additional comments
on how it plans to monitor vehicle usage and whether a waiver was requested and
approved to the current requirement to maintain daily mileage logs.

A.6. We recommend that the Director, Defense Logistics Agency:

       a. Revise Defense Logistics Agency Instruction 4214, “Support Equipment
Management,” modified September 22, 2009, to require fleet managers to conduct
comprehensive annual reviews of underperforming vehicles to identify vehicles that
could be eliminated from the fleet.

Director, Defense Logistics Agency Comments
The Vice Director, Defense Logistics Agency agreed with the recommendation. The
Vice Director stated that DLA Instruction 4214 is undergoing a major rewrite which is
expected to be completed by September 30, 2013. The recommended requirement will
be added to the updated document.

Our Response
Comments from the Vice Director, DLA were responsive. No further comments are
required.

       b. Provide training to fleet managers to ensure they are aware of the vehicle
fleet management requirements in DoD Regulation 4500.36-R, “Management,
Acquisition, and Use of Motor Vehicles,” March 16, 2007.

Director, Defense Logistics Agency Comments
The Vice Director, Defense Logistics Agency agreed with the recommendation. DLA
Installation Support (DS) Fort Belvoir appointed a new interim fleet manager and team
leader to assist in fleet optimization, acquisition and outreach efforts. The newly
appointed fleet manager attended the GSA FedFleet 2012 conference and training in late
June 2012, which included sessions on managing fleet vehicles.


                                           25
Our Response
Comments from the Vice Director, Defense Logistics Agency were responsive. No
further comments are required.

       c. Instruct all drivers to follow Defense Logistics Agency Instruction 4214,
“Support Equipment Management,” modified September 22, 2009, and complete
daily mileage logs.

Director, Defense Logistics Agency Comments
The Vice Director, Defense Logistics Agency agreed with the recommendation.
DS Fort Belvoir instructed all of its GSA fleet vehicle drivers to complete daily trip logs
including all information required by DLA Instruction 4214.

Our Response
Comments from the Vice Director, Defense Logistics Agency were responsive. No
further comments are required.

        d. Pool vehicles where geographically feasible and establish a central point
for the collection of auditable operating data.

Director, Defense Logistics Agency Comments
The Vice Director, Defense Logistics Agency agreed with the recommendation.
DS Fort Belvoir implemented a centralized motor pool of 15 vehicles in the National
Capital Region for GSA vehicles that do not have a unique high priority or special
mission. In addition, DS Fort Belvoir implemented a rotation plan for underutilized
vehicles not included in the motor pool to include some of the special purpose vehicles to
increase mileage and utilization.

Our Response
Comments from the Vice Director, Defense Logistics Agency were responsive. No
further comments are required.

        e. Eliminate 23 excess vehicles or justify the need for these vehicles.
Justifications for vehicles that cannot be eliminated should include an explanation of
why short-term leases or other alternatives to leasing or purchasing cannot be used.

Director, Defense Logistics Agency Comments
The Vice Director, Defense Logistics Agency agreed with the recommendation. To
address the 23 excess vehicles, DS Fort Belvoir has restructured its vehicle fleet. It has
created a Class C motor pool by reallocating 15 underutilized vehicles and has eliminated
2 GSA vehicles to date with another 3 vehicles in the queue for turn in. Justification was
made to retain three underutilized vehicles in support of a critical contingency mission.


                                             26
Our Response
Comments from the Vice Director, Defense Logistics Agency were generally responsive.
The Vice Director did not provide comments on the potential monetary benefits identified
in Finding A and Appendix D of the report. We request the Director, Defense Logistics
Agency provide comments on the potential monetary benefits identified in the report.

       f. Perform a review of the failure to meet standards required for the leasing
of vehicles that were driven less than half of the mileage allowed by DoD Regulation
4500.36-R, “Management, Acquisition, and Use of Motorized Vehicles,”
March 16, 2007, and as appropriate, initiate corrective measures and actions to hold
personnel accountable.

Director, Defense Logistics Agency Comments
The Vice Director, Defense Logistics Agency agreed with the recommendation. The DS
Fort Belvoir site director conducts a monthly review of the GSA fleet and meets with
senior leaders to determine the right sizing of its motor pool fleet. Due to the results in
the report, the fleet manager was replaced and a new fleet manager was appointed and a
functional motor pool operation was established. Appropriate corrective measures were
taken to hold personnel accountable for their actions.

Our Response
Comments from the Vice Director, Defense Logistics Agency were responsive. No
further comments are required.

A.7. We recommend that the Director, Pentagon Force Protection Agency:

       a. Perform a review of the failure to meet standards required for the leasing
of vehicles that were driven less than half of the mileage allowed by DoD Regulation
4500.36-R, “Management, Acquisition, and Use of Motorized Vehicles,”
March 16, 2007, and as appropriate, initiate corrective measures and actions to hold
personnel accountable.

Director, Pentagon Force Protection Agency Comments
The Director, Pentagon Force Protection Agency agreed with the recommendation. The
Director stated that PFPA’s 2011 review of vehicle mileage was an inaccurate predictor
of 2012 vehicle needs for PFPA and that PFPA reduced its fleet after a 2012 review. The
15 vehicles eliminated reduced vehicle leasing costs by $47,000 annually.

Our Response
Comments from the Director, Pentagon Force Protection Agency were responsive. No
further comments are required.

       b. Establish nonmileage-based usage guidelines for use of law enforcement
vehicles.
                                            27
Director, Pentagon Force Protection Agency Comments
The Director, Pentagon Force Protection Agency agreed with the recommendation. The
Director stated that the Pentagon Force Protection Agency is in the process of leasing
vehicle monitoring devices through the General Services Administration which will
facilitate in the establishment and measurement of non-mileage utilization criteria for law
enforcement vehicles. He stated that the Pentagon Force Protection Agency began
installing these devices in April 2013; will define non-mileage based utilization
requirements by the end of calendar year 2013; and will begin measuring law
enforcement vehicles against these new criteria in the first quarter of calendar year 2014.

Our Response
Comments from the Director, Pentagon Force Protection Agency were responsive. No
further comments are required.

A.8. We recommend that the Director, Washington Headquarters Services:

       a. Establish internal guidance requiring WHS fleet managers to conduct
comprehensive annual reviews of underperforming vehicles to identify vehicles that
could be eliminated from the fleet.

Director, Washington Headquarters Services Comments
The Director, Washington Headquarters Services agreed with the recommendation. The
Director stated that Washington Headquarters Services has developed draft guidance that
includes a comprehensive annual review of the Washington Headquarters Services fleet
that identifies any underutilized performing vehicles. The Washington Headquarters
Services internal guidance will be finalized by the end of FY 2013.

Our Response
Comments from the Director, Washington Headquarters Services were responsive. No
further comments are required.

       b. Provide training to the WHS fleet managers to ensure they are aware of
the vehicle fleet management requirements in DoD Regulation 4500.36-R,
“Management, Acquisition, and Use of Motorized Vehicles,” March 16, 2007.

Director, Washington Headquarters Services Comments
The Director, Washington Headquarters Services agreed with the recommendation. The
Director stated that the Washington Headquarters Services fleet manager attended the
AT&L sponsored Fleet Management Conference on April 10, 2013. The Washington
Headquarters Services fleet manager will assure that applicable training is given to those
overseeing the use of vehicles within the fleet.



                                            28
Our Response
Comments from the Director, Washington Headquarters Services were responsive. No
further comments are required.

       c. Require drivers to maintain daily mileage logs.

Director, Washington Headquarters Services Comments
The Director, Washington Headquarters Services agreed with the recommendation. The
Director stated that all WHS fleet vehicles have been entered into the Defense Property
Accountability System. The Director stated that Washington Headquarters Services
internal guidance requires the fleet manager, sub-custodians and drivers to immediately
use the maintenance and utilization module of the Defense Property Accountability
System to track mileage for all Washington Headquarters Services fleet vehicles.

Our Response
Comments from the Director, Washington Headquarters Services were responsive. No
further comments are required.

        d. Pool vehicles where geographically feasible and establish a central point
for the collection of auditable operating data.

Director, Washington Headquarters Services Comments
The Director, Washington Headquarters Services agreed with the recommendation. The
Director stated that the Washington Headquarters Services fleet manager has established
a pooling system that assigns vehicles by geographic location using the Defense Property
Accountability System maintenance and utilization module. In addition, the maintenance
and utilization module provides a central point for the collection of auditable fleet vehicle
operating data.

Our Response
Comments from the Director, Washington Headquarters Services were responsive. No
further comments are required.

        e. Eliminate 71 excess vehicles or justify the need for these vehicles.
Justifications for vehicles that cannot be eliminated should include an explanation of
why short-term leases or other alternatives to leasing or purchasing cannot be used.

Director, Washington Headquarters Services Comments
The Director, Washington Headquarters Services agreed with the recommendation. The
Director stated that Washington Headquarters Services has identified five General
Services Administration leased vehicles for elimination. Washington Headquarters
Services is continuing to review the totality of its fleet vehicles to determine if additional


                                              29
vehicle reductions can be realized. The outcome of the full review will be provided by
the end of calendar year 2013.

Our Response
Comments from the Director, Washington Headquarters Services were partially
responsive. In response to the final report, we request the Director provide an update to
the results of the vehicle review when it is completed and provide comments on the
potential monetary benefits identified in Finding A and Appendix D of the report.

       f. Perform a review of the failure to meet standards required for the leasing
of vehicles that were driven less than half of the mileage allowed by DoD Regulation
4500.36-R, “Management, Acquisition, and Use of Motorized Vehicles,”
March 16, 2007, and as appropriate, initiate corrective measures and actions to hold
personnel accountable.

Director, Washington Headquarters Services Comments
The Director, Washington Headquarters Services agreed with the recommendation. The
Director stated that the Washington Headquarters Services fleet manager is conducting a
review of all lease agreements, vehicle utilization/survey specifics, and any mission
requirements. Washington Headquarters Services is taking corrective measures and
accountability actions as required. The outcome of the review will be provided by the
end of calendar year 2013.

Our Response
Comments from the Director, Washington Headquarters Services were responsive. We
request the Director provide the results of this review when it is completed.




                                            30
Finding B. Vehicle Leases and Taxi Services
Were Not Appropriately Acquired at the
Defense Logistics Agency
The DLA Installation Support, Ft. Belvoir, fleet manager did not properly obtain
transportation services through the appropriate contracting process. Specifically, the
Ft. Belvoir fleet manager inappropriately used the mailroom manager’s Government
purchase card (GPC) to pay:

           •   $5,400 in lease payments for the director’s Chevrolet Tahoe—there was not a
               valid lease contract for this vehicle in 2011;

           •   $20,200 for rental cars for employees in temporary duty status—there was not
               a valid contract for these rental cars from August 2011 to December 2011; and

           •   $31,300 to a taxi cab company for employees’ use of taxis—there was not a
               valid contract for taxi services in 2011.

The Ft. Belvoir fleet manager allowed contracts to lapse but continued payments with a
GPC, and the GPC agency program coordinator and component program manager did not
perform required oversight of the use of the GPC. As a result, unauthorized
commitments of DoD funds occurred and DLA might not have received the best value for
rental cars.

Transportation Services Acquired Incorrectly
The Ft. Belvoir fleet manager incorrectly acquired transportation services to supplement
DLA’s vehicle fleet. The director’s vehicle lease expired in 2010, the contract to acquire
rental cars ended in 2011, and the contract for taxi cab services ended in 2009. After the
lease and contracts expired, the Ft. Belvoir fleet manager made payments using a GPC
without the involvement of the contracting officers. This resulted in unauthorized
commitments. Federal Acquisition Regulation 1.602-3, “Ratification of Unauthorized
Commitments,” and DLA Directive 1.602-3, Revision 5, “Ratification of Unauthorized
Commitments and Quantum Meruit 2 Actions,” require that DLA take ratification action
on the unauthorized commitments. In addition, the Agency program coordinator did not
complete an annual review of all GPC billing official accounts, and the component
program manager did not verify that the agency program coordinator performed annual
audits of selected GPC transactions.




2
    Latin phrase meaning “as much as deserved.”

                                                  31
Contract Not in Place to Lease the Director’s Vehicle
The Ft. Belvoir fleet manager inappropriately used the mailroom manager’s GPC to make
lease payments of $5,400 for a Chevrolet Tahoe that did not have a valid lease contract.
                                        In 2008, DLA issued a contract to Acme Auto
    The Ft. Belvoir fleet manager       Leasing, LLC (contract SP4705-9-P-0005), to
       inappropriately used the         lease a Chevrolet Tahoe for the director’s use. The
    mailroom manager’s GPC to           initial contract was for lease payments totaling
         make lease payments.           $45,900, with $29,700 paid in the base year. The
                                        Ft. Belvoir fleet manager violated DoD Regulation
7000.14-R, “DoD Financial Management Regulation” (DoD FMR), volume 10,
chapter 8, when he failed to have the contracting officer exercise options on the contract
after the base year expired, but continued to make payments for the lease on a GPC. This
resulted in an unauthorized commitment. Figure 8 shows a picture of the director’s
vehicle taken on February 7, 2012.

                           Figure 8. DLA Director’s Vehicle




Contract Not in Place to Lease Rental Cars
The Ft. Belvoir fleet manager also inappropriately used the mailroom manager’s GPC to
make payments totaling $20,200 in 2011. The contracting officer issued a contract in
2008 to Enterprise Rent-A-Car (contract GS-33F-0015S) to rent cars on an as-needed
basis for employees. The Ft. Belvoir fleet manager violated DoD FMR, volume 10,
chapter 8, when he failed to have the contracting officer exercise additional contract
options after the second option year ended on July 30, 2011, but continued to make
payments for the rental cars on the GPC. This resulted in an unauthorized commitment.
From August 2011 to December 2011, the Ft. Belvoir fleet manager made $20,200 in
payments to Enterprise Rent-A-Car with no contract in place. In addition, the Ft. Belvoir
fleet manager did not comply with the Joint Travel Regulation, Volume 2, Chapter 2,
“Official Travel,” requirement that travelers use an available commercial travel office for
all official transportation requirements. Because the Ft. Belvoir fleet manager did not use
the commercial travel office, he did not ensure that DLA received the best value for
rental cars.



                                            32
Contract Not in Place to Obtain Taxi Services
The Ft. Belvoir fleet manager inappropriately used the mailroom manager’s GPC to make
payments for taxi fares totaling $31,300 in 2011. The contracting officer issued a
contract in 2009 to Alexandria White Top Cab (contract SP4705-09-P-0027) to provide
cabs for local travel, specifically to shuttle DLA employees on an as-needed basis. The
Ft. Belvoir fleet manager violated DoD FMR, volume 10, chapter 8, when he failed to
have the contracting officer renew the contract after it ended, but continued to make
payments for the taxi fares on the GPC. This resulted in an unauthorized commitment.
The Director, DLA needs to require the head of contracting to initiate action to review the
Enterprise Rent-A-Car and Alexandria White Top Cab contracts and begin ratification
actions on the unauthorized commitments that were made in accordance with Federal
Acquisition Regulation 1.602-3 and DLA Directive 1.602-3, Revision 5.

Actions Taken to End Car Rental Lease and Contract for
Taxi Services
On March 12, 2012, we met to discuss these issues with DLA management. In this
meeting, DLA’s Ft. Belvoir chief of site operations stated that DLA returned the
Chevrolet Tahoe and ended the lease with Acme Auto Leasing, LLC. He also stated that
DLA stopped renting vehicles from Enterprise Rent-A-Car. He stated that following the
meeting, DLA began requiring employees to use the Defense Travel System for local
travel and no longer allowed them to obtain services from Alexandria White Top Cab.
Additionally, on January 7, 2013, DLA’s head of contracting ratified the unauthorized
commitments made in leasing the director’s vehicle.

Review of GPC Usage
DLA did not have a time-phased plan to ensure that personnel conducted audits of all
GPC accounts annually. The “DoD Government Charge Card Guidebook for
Establishing and Maintaining Purchase, Travel, and Fuel Card Programs,”
December 21, 2011, requires annual audits of all billing accounts and associated cards.
Additionally, DLA Instruction 2106, “Government Purchase Card,” March 4, 2008,
requires periodic reviews of billing official and cardholder accounts for adherence to
procedures and governing policy.

The agency program coordinator, who began working at DLA in September 2011, stated
that she did not perform annual audits of GPC use because she did not have the resources
to audit all of the billing officials’ and associated accounts assigned to her. The
component program manager, who also began working at DLA in September 2011, has
taken steps to ensure that audits are conducted. However, the Director, DLA needs to
establish a time-phased plan to ensure that the agency program coordinators perform
annual audits of all GPC accounts.

The repeated use of a GPC to inappropriately acquire transportation services in violation
of the DoD FMR and the weak oversight that did not identify the problem support the
need for a review of the actions of the individuals involved. The Director, DLA should
perform a review of the Ft. Belvoir fleet manager’s and mailroom manager’s

                                            33
inappropriate use of a GPC to acquire transportation services and, as appropriate, initiate
corrective measures and actions to hold personnel accountable.

The Director, Purchase Card Policy Office, Defense Procurement and Acquisition Policy,
is responsible for overseeing DLA’s GPC Program. We discussed these issues with the
Defense Agency GPC Level 2 Agency/Organization Program Coordinator at the Purchase
Card Policy Office on November 20, 2012. She stated that the Purchase Card Policy
Office was working with DLA to improve its oversight of GPCs. In our opinion, the
Director, Purchase Card Policy Office should provide additional oversight of the DLA
GPC Program. This oversight should include a time-phased plan with metrics and
benchmarks to monitor DLA’s oversight of its GPC program. The Director, Purchase
Card Policy Office should establish a time-phased plan with metrics and benchmarks to
monitor improvements in DLA’s oversight of its GPC Program.

Recommendations, Management Comments, and Our
Response
B.1. We recommend that the Director, Defense Logistics Agency, Contracting
Services begin ratification actions concerning the unauthorized commitments of
$20,200 for rental cars and $31,300 for taxi cab services in accordance with Federal
Acquisition Regulation 1.602-3, “Ratification of Unauthorized Commitments,” and
Defense Logistics Agency Directive 1.602-3, Revision 5, “Ratification of
Unauthorized Commitments and Quantum Meruit Actions.”

Director, Defense Logistics Agency Comments
The Vice Director, Defense Logistics Agency agreed with the recommendation. The
Vice Director stated that the Director, DLA Acquisition ratified the two unauthorized
commitments on April 23, 2013.

Our Response
Comments from the Vice Director, Defense Logistics Agency were responsive. No
further comments are required.

B.2. We recommend that the Director, Defense Logistics Agency:
       a. Establish a time-phased plan to ensure that the agency program
coordinators perform annual audits of all Government purchase cards.

Director, Defense Logistics Agency Comments
The Vice Director, Defense Logistics Agency agreed with the recommendation. The
Vice Director stated that the DLA Instruction 2106, "Government Purchase Card,"
July 18, 2012, requires the Agency/Organization Program Coordinators perform a
semiannual audit and provide their report to the DLA Component Manager by January 20
and July 29 each year. Per the DLA Instruction 2106, the agency/organization program
coordinators have performed the first semiannual audit.


                                            34
Our Response
Comments from the Vice Director, Defense Logistics Agency were responsive. No
further comments are required.

        b. Perform a review of the Defense Logistics Agency, Installation Support,
Ft. Belvoir, fleet manager’s and mailroom manager’s inappropriate use of a
Government purchase card to acquire transportation services and, as appropriate,
initiate corrective measures and actions to hold personnel accountable.

Director, Defense Logistics Agency Comments
The Vice Director, Defense Logistics Agency agreed with the recommendation.
Appropriate corrective measures have been taken to hold personnel accountable for their
actions. DS Fort Belvoir replaced the billing official, alternate billing official, and
government purchase card holder who were involved in the inappropriate use of the
Government Purchase Card. DS Fort Belvoir has assigned and trained new personnel to
these positions and has developed internal management controls to ensure Government
Purchase Card and contract acquisitions are fiscally sound and are consistent with all
relevant regulations.

Our Response
Comments from the Vice Director, Defense Logistics Agency were responsive. No
further comments are required.

B.3. We recommend that the Director, Purchase Card Policy Office, Defense
Procurement and Acquisition Policy initiate a time-phased plan with metrics and
benchmarks to monitor improvements in the Defense Logistics Agency’s oversight
of its Government Purchase Card Program.

Director, Defense Procurement and Acquisition Policy
Comments
The Director, Defense Procurement and Acquisition Policy agreed with the
recommendation. The Director stated that DLA’s deployment of the DoD Purchase Card
On-Line System provides DLA with additional tools, including a set of Department-wide
Government Purchase Card program metrics and benchmarks, to monitor and manage
their Government Purchase Card program on an on-going basis. Having completed the
deployment of the DoD Purchase Card On-Line System, DLA now has access to
five applications that meet distinct government purchase card program management and
oversight needs addressed in the report’s findings and recommendations.

Our Response
Comments from the Director, Defense Procurement and Acquisition Policy were
responsive. No further comments are required.



                                          35
Appendix A. Scope and Methodology
We conducted this performance audit from December 2011 to March 2013 in accordance
with generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

We visited Navy, DLA, PFPA, and WHS motor pool sites from February 2012 through
April 2012. We continued to gather data and perform analysis and met with key
individuals through December 2012. We restricted our audit work to Navy, DLA, PFPA,
and WHS vehicles garaged in the NCR, as defined by title 10, United States Code,
section 2674. We did not include the Army in our scope because the Army Audit
Agency completed a series of audit reports on the Army’s nontactical vehicle fleet (see
Appendix B for a list of prior audit coverage). We excluded the Air Force from our
scope because the Government Accountability Office was conducting an audit that
included the Air Force’s nontactical vehicle fleet.

We conducted existence testing at the Navy, DLA, PFPA, and WHS. We tested
240 vehicles for existence and found that inventory records were generally accurate for
the vehicles tested.

We gathered 2011 mileage information from each site and measured it against the criteria
in DoD Regulation 4500.36-R, “Management, Acquisition, and Use of Motor Vehicles,”
March 16, 2007 to determine whether the vehicles were meeting mileage usage
requirements. When available, we used GSA invoices to calculate mileage. When GSA
invoices were not available, we relied on the mileage records from each Component. We
subtracted 2011 beginning mileage from 2011 ending mileage to find the number of
miles driven in 2011. When vehicles were acquired during 2011, we estimated 2011
mileage by dividing the actual 2011 mileage by the number of months the vehicle was
driven and then multiplying that monthly average by 12 to estimate 2011 mileage.

We classified each staff vehicle as a sedan, light truck, heavy truck, or bus for our
mileage analysis. In accordance with DoD Regulation 4500.36-R, we classified
passenger vans and sport utility vehicles as sedans for mileage analysis purposes. If the
vehicle description included cargo, we classified it as a light or heavy truck. We relied
on each Component’s description of its vehicles to make this classification.
DoD Regulation 4500.36-R sets an annual mileage standard of 12,000 miles for sedans,
10,000 miles for light trucks, 7,500 miles for heavy trucks, and 9,000 miles for buses.
We classified vehicles that fell below half of this standard as excess; for example, a sedan
with less than 6,000 miles of use in 2011 would be classified as excess.

In some cases, DoD Regulation 4500.36-R permits executives (such as Under Secretaries
of Defense and agency directors) to have vehicles assigned to them. We excluded these
vehicles from our mileage analysis because of their unique mission requirements. We


                                            36
also excluded newly acquired vehicles with less than 4 months of usage and vehicles with
no mileage records.

We excluded law enforcement and specialty vehicles from our mileage analysis. During
our fieldwork, we found that mileage was not always the best measure of vehicle use.
For example, NRL had specialty vehicles used for experimental purposes, while PFPA
had law enforcement vehicles used for security, which were frequently in use but had
stationary assignments.

In determining whether daily mileage logs were adequate, we required the log to include
the name of the driver, the date of each trip, type of vehicle used, number of miles driven,
and a description of the purpose or destination of the trip.

Use of Computer-Processed Data
We used mileage data obtained from the invoices produced monthly by the GSA
Get Odometer Readings at the Pump reporting tool and from several other systems in our
evaluation of each Component’s use of its vehicles. These systems reported mileage
based on the odometer readings the drivers recorded when purchasing fuel or the daily
trip tickets the agencies recorded. We used the computer-processed data to determine
how many miles were driven.

To assess the reliability of computer-processed data, we compared our observed
odometer readings on selected vehicles to the most recent system-produced mileage data
available. Where possible, we included up to 1 year of mileage data to lessen the effect
of short-term fluctuations in mileage or user error in reporting mileage. We did not find
errors that would preclude the use of computer-processed data to meet audit objectives or
that would change the conclusions in the report.




                                            37
Appendix B. Prior Coverage
During the last 5 years, the Government Accountability Office (GAO), Department of
Defense Inspector General (DoD IG), Army Audit Agency, Naval Audit Service, and
Air Force Audit Agency have issued 12 reports discussing vehicle fleets.

Unrestricted GAO reports can be accessed over the Internet at http://www.gao.gov.
Unrestricted DoD IG reports can be accessed at http://www.dodig.mil/pubs. Unrestricted
Army reports can be accessed from .mil and gao.gov domains over the Internet at
https://www.aaa.army.mil/. Naval Audit Service reports are not available over the
Internet. Air Force Audit Agency reports can be accessed from .mil domains over the
Internet at https://afkm.wpafb.af.mil/ASPs/CoP/OpenCoP.asp?Filter=OO-AD-01-41 by
those with common access cards.

GAO
Report No. GAO-12-780, “Federal Fleets, Overall Increase in Number of Vehicles Masks
That Some Agencies Decreased Their Fleets,” August 2, 2012

DoD IG
Report No. D-2010-022, “Management of Nontactical Vehicles in Support of Operation
Iraqi Freedom,” November 20, 2009

Naval Audit Service
Report No. N2009-0030, “Naval Facilities Engineering Command Base Support Vehicles
Management Information Systems,” May 21, 2009

Army Audit Agency
Report No. A-2012-0051-IEO, “Installation Facilities and Operations Support,”
January 20, 2012

Report No. A-2011-0174-IEO, “Installation Facilities and Operations Support
Fort Riley,” August 4, 2011

Report No. A-2011-0173-IEO, “Installation Facilities and Operations Support
Fort Benning,” August 4, 2011

Report No. A-2011-0097-IEO, “Installation Facilities and Operations Support
Fort Belvoir,” April 21, 2011

Report No. A-2011-0044-IEO, “Installation Facilities and Operations Support
Fort Meade,” February 8, 2011

Report No. A-2008-0208-ALR, “U.S Army Vehicle Registration Sierra Army Depot,”
September 26, 2008



                                          38
Report No. A-2008-0229-ALE, “Management of Nontactical Vehicles in Europe,”
August 25, 2008

Report No. A-2008-0167-ALR, “U.S Army Vehicle Registration Business Rules,”
June 25, 2008

Air Force Audit Agency
Report No. F2008-0003-FC4000, “Alternative Fueled Vehicles,” July 2, 2008




                                        39
Appendix C. Additional Background on the
Audited Components
Department of the Navy
The mission of the Navy is to maintain, train, and equip combat-ready Naval forces
capable of winning wars, deterring aggression, and maintaining freedom of the seas.
The Navy’s NCR vehicle fleet is composed of 914 vehicles at annual lease costs of
$1.9 million. Our audit work included five components of the Navy’s NCR vehicle fleet:
NAVFAC Washington, NCIS, NRL, MWR, and NEXCOM.

Naval Facilities Engineering Command
NAVFAC is the systems command that delivers and maintains quality, sustainable
facilities and acquires and manages capabilities for the Navy’s expeditionary combat
forces. NAVFAC Washington’s vehicle fleet is composed primarily of GSA leased and
owned passenger and maintenance vehicles. NAVFAC Washington’s NCR nontactical
vehicle fleet consisted of 633 vehicles, 467 of which were leased at an annual cost of
$1.5 million.

Naval Criminal Investigative Service
NCIS is the Federal law enforcement agency charged with conducting investigations and
operations aimed at identifying and neutralizing threats to the Navy. NCIS’s vehicle fleet
is composed primarily of commercially leased sedans, which are assigned to special
agents. NCIS’s NCR nontactical vehicle fleet consisted of 130 vehicles, 127 of which
were leased.

Naval Research Laboratory
NRL is the Navy's full-spectrum corporate laboratory, conducting a broadly based
multidisciplinary program of scientific research and advanced technological development
directed toward maritime applications of new and improved materials, techniques,
equipment, and systems and ocean, atmospheric, and space sciences and related
technologies. NRL’s vehicle fleet is composed of Navy-owned passenger, maintenance,
and specialty vehicles. NRL’s NCR nontactical vehicle fleet consisted of 110 vehicles.
There were no leasing costs associated with these vehicles.

Navy Morale, Welfare, and Recreation
MWR administers a varied program of recreation, social, and community support
activities at U.S. Navy facilities worldwide. MWR’s vehicle fleet is composed of owned
passenger and maintenance vehicles. Navy MWR’s NCR nontactical vehicle fleet
consisted of 27 vehicles. There were no leasing costs associated with these vehicles.

Navy Exchange Service Command
NEXCOM provides quality merchandise at a savings and supports Navy quality of life
programs. NEXCOM’s vehicle fleet is composed of leased passenger and maintenance
                                           40
vehicles. NEXCOM’s NCR nontactical vehicle fleet consisted of 14 leased vehicles at an
annual cost of $43,000.

Defense Logistics Agency
DLA provides nearly 100 percent of the consumable items that the Military Services need
to operate, from food, fuel, and energy, to uniforms, medical supplies, and construction
and barrier equipment. DLA also manages the reuse of military equipment, provides
catalogs and other logistics information products, and offers document automation and
production services. DLA’s vehicle fleet is composed primarily of GSA leased passenger
and maintenance vehicles. DLA’s NCR nontactical vehicle fleet consisted of 40 vehicles,
with annual lease cost of $132,000.

Pentagon Force Protection Agency
PFPA is a civilian agency within DoD charged with protecting and safeguarding the
occupants, visitors, and infrastructure of the Pentagon and other assigned Pentagon
facilities. PFPA is headquartered at the Pentagon and operates 275 vehicles in its NCR
fleet, with annual lease cost of $1 million.

Washington Headquarters Services
WHS is a DoD field activity that manages DoD-wide programs and operations for the
Pentagon Reservation and DoD leased NCR facilities. WHS also provides support to the
Secretary of Defense, senior DoD leaders, and their staff to fulfill the mission of the
Department. WHS’s vehicle fleet is composed primarily of GSA leased passenger and
maintenance vehicles. WHS is headquartered at the Pentagon and has 103 vehicles
within its NCR fleet, with annual lease cost of $347,000.




                                           41
Appendix D. Summary of Potential
Monetary Benefits

Recommendation   Type of Benefit          Amount of Benefit            Accounts

A.1.a.           Economy and             NAVFAC                   Defense Working
                 Efficiency.             Washington could put     Capital Fund,
                 Reduces costs           $718,000 of funds to     Navy
                 by identifying          better use annually by   97 2013 4930.002
                 and                     eliminating leasing
                 eliminating             costs for excess
                 excess                  vehicles.
                 vehicles.
A.3.a            Economy and             NEXCOM could put         NEXCOM does
                 Efficiency.             $25,000 of funds to      not use
                 Reduces costs by        better use annually by   appropriated funds
                 identifying and         eliminating leasing
                 eliminating             costs for excess
                 excess vehicles.        vehicles.
A.6.e.           Economy and             DLA could put            Defense Working
                 Efficiency.             $73,000 of funds to      Capital Fund,
                 Reduces costs by        better use annually by   Defense Agencies
                 identifying and         eliminating leasing      97X4930
                 eliminating             costs for excess
                 excess vehicles.        vehicles.

No               Economy and             PFPA could put           Pentagon
Recommendation   Efficiency.             $177,000 of funds to     Reservation
                 Reduces costs by        better use annually by   Maintenance
                 identifying and         eliminating leasing      Revolving Fund
                 eliminating             costs for excess         97X4950 and the
                 excess vehicles.        vehicles.                Building
                                                                  Maintenance Fund,
A.8.e.           Economy and             WHS could put            Operation and
                 Efficiency.             $252,000 of funds to     Maintenance,
                 Reduces costs by        better use annually by   Defense-Wide,
                 identifying and         eliminating leasing      Defense 97X0100
                 eliminating             costs for excess
                 excess vehicles.        vehicles.




                                    42
Defense Logistics Agency Comments      Final Report
                                        Reference




                                    The Vice Director,
                                    Defense Logistics
                                    Agency provided
                                    additional material
                                    documenting actions
                                    the Defense Logistics
                                    Agency has taken.
                                    This material is not
                                    included in this report
                                    due to its length.




                          43
44
45
46
Naval Criminal Investigative Service Comments      Final Report
                                                    Reference




                                                The Acting Director,
                                                Naval Criminal
                                                Investigative Service
                                                provided additional
                                                material
                                                documenting actions
                                                the Naval Criminal
                                                Investigative Service
                                                has taken.
                                                This material is not
                                                included in this report
                                                due to its length.




                                  47
Pentagon Force Protection Agency Comments




                                48
49
Washington Headquarters Services Comments




                                50
51
Naval Supply Systems Command




                               52
53
54
55
Naval Facilities Engineering Command Comments




                                56
57
58
Navy Installations Command Comments      Final Report
                                          Reference




                                      The Inspector
                                      General, Navy
                                      Installation Command
                                      provided additional
                                      material
                                      documenting actions
                                      the Navy Installation
                                      Command has taken.
                                      This material is not
                                      included in this report
                                      due to its length.




                               59
60
61
Naval Research Laboratory Comments




                               62
63
Defense Procurement and Acquisition Policy Comments




                                 64
65
